               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




      Density of First-Class Mail on Air
               Transportation

                       Audit Report




                                              March 12, 2012

Report Number NL-AR-12-003
                                                                        March 12, 2012

                                                    Density of First-Class Mail on Air
                                                                       Transportation

                                                         Report Number NL-AR-12-003



IMPACT ON:
First-Class Mail® (FCM) containers on        WHAT THE OIG RECOMMENDED:
air transportation networks.                 We recommended the vice president,
                                             Network Operations, continue to
WHY THE OIG DID THE AUDIT:                   develop optimization processes to
Our objective was to determine whether       increase FCM density, establish
opportunities exist to increase the          processes to improve density of mail in
container density of FCM transported by      containers by separating FCM to be
air.                                         flown during operations, develop
                                             targeted secondary sort programs using
WHAT THE OIG FOUND:                          fewer machines to process FCM to be
The U.S. Postal Service was not always       transported by air; adjust sensors on flat
filling up letter trays and flat tub         sorting machines to allow mail to reach
containers when transporting FCM by          maximum container capacity, and
air. We determined that low mail             require the use of 1-foot letter trays
container density existed, in part,          during manual outgoing sorting
because Postal Service managers were:        operations when possible.
not always segregating FCM containers
in the cancelling or sorting processes to    WHAT MANAGEMENT SAID:
facilitate consolidation; running            Management agreed with our findings
machines with identical and similar sort     and recommendations. Management
programs for mail to the same                stated they will continue to consolidate
destinations; not always properly setting    mail processing operations, use the Sort
flat sorting machine sensors to fill         Program Optimization software, and
containers; and not always using 1-foot      review of the number of mail sorting
letter trays when practical.                 machines to maximize container space.
Consequently, by not filling some            Management will also issue policy to
containers bound for the same                adjust sensors on flat sorting machines
destination, the Postal Service spent        and require the use of 1-foot letter trays
more than $27.3 million in excess air        in manual operations.
transportation costs over a 1-year
period. We estimate the Postal Service       AUDITORS’ COMMENTS:
could save an average of about $24           The U.S. Postal Service Office of
million a year, or about $240 million over   Inspector General considers
10 years by fully utilizing container        management’s comments responsive to
space.                                       the recommendations.

                                             Link to review the entire report
March 12, 2012

MEMORANDUM FOR:             DAVID E. WILLIAMS, JR.
                            VICE PRESIDENT, NETWORK OPERATIONS




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Audit Report – Density of First-Class Mail on Air
                            Transportation (Report Number NL-AR-12-003)

This report presents the results of our audit of the Density of First-Class Mail on Air
Transportation (Project Number 11XG006NL000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody J. Troxclair, director,
Transportation, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Cynthia F. Mallonee
    Frank Neri
    Corporate Audit and Response Management
Density of First-Class Mail                                                                                        NL-AR-12-003
 on Air Transportation


                                               TABLE OF CONTENTS



Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Less-Than-Full Mail Containers ...................................................................................... 2

Management Actions....................................................................................................... 5

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 8

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Monetary and Other Impacts ..................................................................... 11

   Questioned Costs Applicable to Federal Express ..................................................... 12

   Questioned Costs Applicable to United Parcel Service ............................................ 13

   Questioned Costs Applicable to Commercial Passenger Airlines ............................. 14

Appendix C: Management’s Comments ........................................................................ 15
Density of First-Class Mail                                                    NL-AR-12-003
 on Air Transportation



Introduction

This report presents the results of our audit of the Density of First-Class Mail (FCM) on
Air Transportation (Project Number 11XG006NL000). Our objective was to determine
whether opportunities exist to increase the container density of FCM transported by air.
The U.S. Postal Service Office of Inspector General (OIG) initiated this audit, which
addresses operational risk. See Appendix A for additional information about this audit.

The U.S Postal Service uses various types of equipment in its plants to cancel and sort
outgoing FCM (letters and flats) and has processes in place for combining and placing
mail destined for the same location into containers for transportation. Containers the
Postal Service uses for FCM include plastic or cardboard letter trays and flat tubs with
specific dimensions and tare weights.1 Some FCM has to be transported by air to meet
service standards on either commercial passenger airlines (CAIR), Federal Express
(FedEx), or United Parcel Service (UPS). The Postal Service pays commercial carriers
and UPS by the pound, including the tare weight of the containers, and pays FedEx by
the cubic foot. By increasing the density of mail in containers, the Postal Service can
decrease overall air transportation costs by eliminating empty space within containers
and reducing the number of containers to be transported.

Conclusion

We determined the Postal Service was not always filling up letter trays and flat tub
containers when transporting FCM by air and that opportunities exist to increase mail
density within the containers. We found that low density existed, in part, because
managers were (1) not always segregating FCM containers in the cancelling and sorting
processes to facilitate consolidation, (2) running machines with identical and similar sort
programs for mail to the same destinations, (3) not always properly setting flat sorting
machine sensors to fill containers, and (4) not always using 1-foot letter trays, when
practical. We concluded that, by not filling some containers bound for the same
destination, the Postal Service spent more than $27.3 million in excess air
transportation costs over a 1-year period. We estimate the Postal Service could save an
average of about $24 million a year, or about $240 million over 10 years by fully utilizing
container space.




1
    Weight of the containers without mail.
                                             1
Density of First-Class Mail                                                                           NL-AR-12-003
 on Air Transportation


Less-Than-Full Mail Containers

Some FCM was being transported by air in less-than-full mail containers bound for the
same destinations across the country. If the mail containers were full, the Postal Service
could have used about              fewer cubic feet of space on FedEx,2             fewer
pounds on UPS, and               fewer pounds on CAIR.3 Table 1 estimates the amount
of cubic feet or pound savings, and provides an associated estimated cost savings.

                Table 1. Cost Savings if FCM Trays and Tubs are Filled to
                Maximum Density — April 1, 2010, through March 31, 20114
                                 Estimated Amount of       Estimated
                 Air Carrier     Cubic Feet or Pounds     Amount of
                                  that could be Saved       Savings
                 FedEx                                      $23,449,805
                 UPS                                          1,083,946
                 CAIR                                         2,771,007
                 TOTAL                                      $27,304,758



We observed and confirmed the low density of mail in containers throughout our audit
fieldwork and while conducting prior audits. For example:

   At the Jacksonville, FL and Cleveland, OH plants, we found containers only partially
    full of both letter and flat mail being dispatched to the same destination. For
    example, the Dispatch and Routing (D&R) tags on the following FCM letter tray and
    flat tub showed they weighed only 2 and 3 pounds, respectively, whereas typical full
    trays and tubs weigh 15 and 20 pounds, respectively.




2
  The Postal Service pays FedEx based on cubic feet for day-turn operations.
3
  The Postal Service pays UPS and commercial carriers based on weight.
4
  We calculated the value of transportation cost incurred and the associated amount of cubic feet or pounds that
could have been avoided if mail was processed in full letter trays and tubs by using Audit Command Language
software.


                                                          2
Density of First-Class Mail                                                                            NL-AR-12-003
 on Air Transportation




                                                         Source: OIG
                   D&R Tag on FCM letter tray                      D&R Tag on FCM flat tub from
                   from Jacksonville, FL to Burlington, CA        Cleveland, OH to Los Angeles, CA



   At the North Texas Processing and Distribution Center (P&DC), we observed three
    letter trays dispatched to Billings, MT assigned to fly on UPS. Two trays weighed
    4 pounds5 each and one weighed 6 pounds. All three trays contained the same type
    of FCM dispatched from multiple processing machines and would have easily fit into
    one letter tray.

   In another case at the North Texas P&DC, we observed 1-foot trays available in the
    manual FCM letter distribution operation, but not being used. Instead, the Postal
    Service partially filled full size 2-foot letter trays in which to dispatch the mail for air
    transportation.




                                                          Source: OIG
                     Thirty-three mostly empty FCM letter           Two letters in a FCM manual letter
                       trays at the North Texas P&DC manual         tray at the North Texas P&DC for
                          operation for dispatch by air                 dispatch by air transportation                 trans
                              transportation




5
  We noted that 5,666,477 out of over 21 million trays weighed 4 pounds or less (26.25 percent) during the period of
review, April 1, 2010, to March 31, 2011.


                                                          3
Density of First-Class Mail                                                                              NL-AR-12-003
 on Air Transportation


    Of the 33 two-foot letter trays of FCM, in the picture to the left above, all were less
    (and in most cases much less) than half-full. One tray contained as few as two
    letters as shown in the picture above on the right. All of this mail could have been
    dispatched in half-size letter trays. If this mail had been dispatched in 33 half-size
    letter trays, the Postal Service would have reduced overall cubic feet and saved
    about $94.75 for transporting this mail on FedEx. We determined the Postal Service
    could reduce overall transportation costs6 by using the 1-foot (half-size) letter trays in
    FCM manual operations as necessary.

We identified a number of causes for the low density of mail in containers as follows:

   Processing plants were not always segregating FCM to be transported by air in the
    cancelling and sorting processes to facilitate downstream consolidation and
    decrease the number of letter trays and flat tubs dispatched to each destination. For
    example, if the processing plants had identified and used one of the bins on the
    Advanced Facer Canceler System 200 (AFCS 200) machines to separate letter mail
    to be flown from other outgoing mail, they would need fewer processing machines
    and increase mail tray density.7

   Some processing plants were running machines with identical and similar sort
    programs for mail to the same destinations that resulted in nearly empty letter trays
    and flat tubs. By creating targeted secondary sort programs for mail transported by
    air, the Postal Service could reduce the number of sorting machines used, resulting
    in fewer, more densely packed FCM letter trays and flat tubs dispatched to each
    destination.

   Facilities were not always ensuring flat sorting machine sensors were appropriately
    set to fill containers prior to discharge from the machine.8 If this occurred, the Postal
    Service could reduce the number of flat tubs dispatched to each destination and
    benefit from less material handling at origins and destinations.

   Postal Service processing plants were not always using half-size9 1-foot letter trays
    in manual operations to optimize container space when practical. Half-trays should
    be used when densities for individual destinations are low.

Overall, the Postal Service could have saved at least $27.3 million if it maximized FCM
container density before tendering them for transport by air from April 1, 2010 through
March 31, 2011. If the FCM containers are filled to their maximum density before they
are tendered for transport by air, the Postal Service could avoid about $240 million in
6
  According to estimates, the Postal Service could save as much as $326,418.
7
  The AFCS 200 machines have 12 letter bins separations instead of six for older models. For sites not equipped with
AFCS 200 machines or with multiple flat sorting machines, secondary sort plans could be developed to run the mail
on as few machines as possible.
8
  We found that the Automated Tray Handling Systems (ATHS) on Automated Flats Sorting Machine (AFSM) 100
machines at processing plants were discharging less than full flat tubs for dispatch to all destinations, including air
destinations. Compounding this situation is the fact that when the ATHS discharges the ―full‖ flat tubs of mail onto the
roller conveyor, there is some ―settling‖ that occurs in these flat tubs.
9
  A 1-foot letter tray is one-half the size of a standard 2-foot letter tray.


                                                           4
Density of First-Class Mail                                                      NL-AR-12-003
 on Air Transportation


cost over the next 10 years, or an average of $24 million a year. See Appendix B for
details of unnecessary costs and potential cost avoidance.

Management Actions

The Postal Service developed a Sort Program Optimization (SPO) tool to standardize
existing sort programs. Implementation of this optimization tool was completed for FCM
letters at the end of fiscal year (FY) 2011 and will be completed in FY 2012 for FCM
flats. Some of the benefits of using the SPO include: fewer handlings before mail is
dispatched; standardized, accurate handling of outgoing mail; mail consolidation that
creates fewer partially filled letter trays and flat tubs; and correct down flow information
across sort programs. While the SPO tool was not developed specifically for mail to be
flown, it may improve the density of some FCM letter trays and tubs.

Recommendations

We recommend the vice president, Network Operations:

1. Continue to develop optimization processes to increase First-Class Mail density to
   maximize container space.

2. For sites equipped with the Advanced Facer Canceler System 200 series machines,
   separate First-Class Mail to be transported by air for sorting on a single sorting
   machine for further processing and dispatch.

3. Develop targeted secondary sort programs to process First-Class Mail bound for air
   transportation to maximize container space.

4. For sites equipped with automated flat sorting equipment, adjust sensors to ensure
   flat tubs are filled to maximum capacity prior to discharge or removal from the
   machine.

5. Require that processing and distribution center managers use half-size, 1-foot letter
   trays in manual outgoing letter-sorting operations to optimize container space as
   necessary for mail dispatched on air transportation.

Management’s Comments

Management agreed with our findings and recommendations. Management stated they
would continue to work to consolidate mail processing operations to increase container
density and work with the SPO software to flow FCM to be transported by air to a single
sorting machine if it is the most efficient process. Management also agreed to continue
to review the number of outgoing primary sort programs to maximize density and
container space. For sites with automated flat sorting equipment, management will
publish instructions requiring sensors be adjusted to ensure flat tubs are filled to
capacity. In addition, management will issue instructions to use half-size trays for



                                              5
Density of First-Class Mail                                                                          NL-AR-12-003
 on Air Transportation


manual outgoing letter operations to optimize container space. See Appendix C for
management’s comments in their entirety.10

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. However, with
respect to recommendations 2 and 3, management cited alternative solutions than
those recommended in the report. While the stated solutions will help to address the
issues identified, management needs to implement further actions as recommended to
maximize density by separating FCM to be transported by air with the AFCS 200
machines early in the sort process to facilitate downstream processing to flow mail to a
single sorting machine. Management should also develop targeted secondary sort
programs to process FCM to maximize container space and reduce the number of letter
trays and flat tubs dispatched from distribution operations. The OIG will continue to work
with management on these recommendations through the process for closing significant
recommendations.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




10
  In addition to Appendix C, management provided an email dated March 2, 2012, that explicitly stated their
agreement with recommendations 2 and 3 and with our monetary impact.


                                                         6
Density of First-Class Mail                                                                                   NL-AR-12-003
 on Air Transportation



                                 Appendix A: Additional Information

Background

Postal Service plants use various types of equipment to cancel and sort outgoing FCM
letters and flats and to combine and place mail destined for the same locations into
containers for transportation. One of the equipment types recently deployed at several
Postal Service plants to process FCM letters is the AFCS 200 series. The AFCS 200
separates flat mail from letter mail and performs a preliminary sort prior to further
processing. One advantage of the AFCS 200 is that there are 12 letter bins for
separation rather than the six found in the earlier system versions. Other types of
equipment Postal Service plants commonly use include the delivery barcode sorters to
sort FCM letters and the AFSM 100 to sort FCM flats.

Most FCM the Postal Service handles is dispatched to air transportation in handling
units such as plastic or cardboard tubs11 for flats (envelopes too large to be processed
with letters) and 2-foot plastic or cardboard letter trays. Half-size (or 1-foot) letter trays
are also available for use.12




              Source: http://blue.usps.gov/site/wcm/connect/network_operations/logistics_and_processing/mte
                                                   (click on ―EIRS List‖)

                      Postal Service official description of some letter trays
                        and flat tubs (trays) in which FCM is dispatched.

Container Density and Air Transportation Costs. The Postal Service has contracts with
certain CAIR, FedEx, and UPS to fly some FCM to meet service standards and to
balance service and cost. Since the Postal Service pays contractors for this service
based on the cubic foot or pound, increasing the density of FCM letter trays and flat
tubs could save the Postal Service money.

When FCM is transported by air on CAIR and UPS, the tare weight of the handling unit
(tubs, trays, sacks, etc.) and mail are applied to the rate per pound paid. The charge for
11
   ―Flat tubs‖ is the general vernacular and most common usage, both in the field and at headquarters and other
management levels, for the mail transport equipment item described in official handbooks and policy statements as
4-sided flats trays.
12
   Equipment Inventory Reporting System (EIRS) is a computerized information system designed to help manage and
identify available quantities of Mail Transportation Equipment.


                                                            7
Density of First-Class Mail                                                                                NL-AR-12-003
 on Air Transportation


FCM transported by air on FedEx is by cubic foot of the air containers used to transport
letter trays and tubs. The Postal Service spends about $500 million per year shipping
FCM by air on FedEx, CAIR, and UPS.

The Operations Concepts and Guidelines document dated January 3, 2000, states that
processing facilities should use half-trays when mail density is low. Postal Service
Headquarters officials stated that half-trays were most applicable at manual letter
distribution operations and cited that material handling systems deployed after this
guideline would have challenges13 if this half-tray requirement were applied to current
automated distribution operations.14

Objective, Scope, and Methodology

Our objective was to determine whether opportunities exist to increase the container
density of FCM transported by air. To accomplish our objective, we interviewed officials
from Postal Service Network Operations at headquarters. We also evaluated the types
and characteristics of FCM being transported on air networks; considered on-time
service standards; analyzed systemic causes for less-than-full containers; and analyzed
alternate solutions for making the best use of air networks. We referred to our prior
work15 related to the transport of mail on all air networks in comparing those field
observations and inspections to those conducted during this review at the North Texas
and Cleveland P&DCs. We focused on opportunities in mail processing and distribution
operations that would result in the reduction of the number and size of handling units
dispatched and assigned for transport on air transportation.

To identify any related cost savings, we examined and analyzed relevant documents
including:

    Scan data for FCM transported by air for a 1-year period from April 1, 2010, through
     March 31, 2011.

    Postal Service policies governing processing and dispatch operations.

    Postal Service policies governing assignment of mail to air transportation.

We examined computer-generated data to analyze mail volume, individual handling unit
characteristics, and costs. We did not audit or comprehensively validate the data;
however, the large amounts of data – tens of millions of records — its untimely
accessibility, and lengthy analytical processes significantly constrained our work.

13
   Challenges include the tray lines with automatic sleevers and strappers – there is no ―in-line‖ sleeving capability for
half-size 1-foot letter trays – only for the regular size letter tray (2-foot).
14
   Postal Service Headquarters management is also moving toward standardizing bin assignments and SPO for letter
and flat mail processing machines, providing opportunities to establish guidelines for improving the density of FCM
letter trays and flat tubs, and reducing the overall number of units being handled on a daily basis.
15
   Our prior work included a series of audits concerning operational inefficiencies under the FedEx Transportation
Agreement nationwide and issues with a major Postal Service customer in each postal area – listed under ―Prior
Audits.‖


                                                            8
Density of First-Class Mail                                                                          NL-AR-12-003
 on Air Transportation


To address these data limitations, we applied alternate procedures. We discussed the
data with Postal Service senior officials, managers, supervisors, and employees. We
reviewed source documents associated with container weights and processing
operations and discussed our initial findings and recommendations with senior Postal
Service officials and considered their perspective. We considered the results of
observations and physical inspections related to the density of FCM transported on air
networks. We also applied conservative principles to our cost-reduction estimates and
projected potential savings.

We conducted this performance audit from February 2011 through March 2012,16 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on January 9, 2012, and included their
comments where appropriate.




16
     Observations from prior audits that we relied on were conducted from March 2006 through May 2010.


                                                          9
Density of First-Class Mail                                                                            NL-AR-12-003
 on Air Transportation



Prior Audit Coverage

Our previous audits identified FedEx operational efficiency opportunities related to
surface mail flown on FedEx, FCM flown on FedEx, and FedEx air container capacity
and bypass container usage. Postal Service management generally agreed to our audit
recommendations.

                                                                                        Final           Related
                                                                   Report
                      Report Title                                                     Report          Monetary
                                                                   Number
                                                                                        Date           Impact17
Air Networks – Issues In the Pacific Area
                                                                 NL-AR-08-001        11/23/2007        $80.4 million
Associated with a Major Postal Service Customer
Air Networks – Federal Express Transportation
                                                                 NL-AR-08-002         2/19/2008        $13.3 million
Agreement – Pacific Area
Air Networks – Federal Express Transportation
                                                                 NL-AR-08-008         9/29/2008        $19.1 million
Agreement – Western Area
Air Networks – Federal Express Transportation
                                                                 NL-AR-09-002          3/3/2009         $5.9 million
Agreement – Southwest Area
Air Networks – Federal Express Transportation
                                                                 NL-AR-09-007         7/31/2009         $9.7 million
Agreement – Southeast Area
Air Networks – Federal Express Transportation
Agreement – Capital Metro, Eastern, Great Lakes, and             NL-AR-10-005         5/25/2010        $16.4 million
Northeast Areas
Air Networks – Federal Express Transportation
                                                                 NL-AR-10-010         9/29/2010           None
Agreement – National Analysis


The dollar amounts listed above include only the opportunities related to FedEx air
containers. The current audit concentrates on improving the mail container density, and
reducing the number of individual letter trays and flat tubs tendered to FedEx, UPS, and
CAIR.




17
   Related cumulative monetary impact amounts for the density finding within these reports include over $27.5 million
in unnecessary questioned costs and an estimated $117.3 million in funds put to better use over 10 years. The dollar
amounts listed below include only the opportunities related to FedEx air containers. The current audit concentrates on
improving the mail container density, and reducing the number of individual letter trays and flat tubs tendered to
FedEx, UPS, and CAIR.


                                                         10
Density of First-Class Mail                                                                           NL-AR-12-003
 on Air Transportation




                              Appendix B: Monetary and Other Impacts

                                             Monetary Impacts

                 Air                    Questioned Costs18
                Carrier                  Impact Category                              Amount

                 FedEx         FCM Letter Trays and Flat Tubs not                  $23,449,805
                               Filled to Their Maximum Density

                  UPS          FCM Letter Trays and Flat Tubs not
                                                                                     1,083,946
                               Filled to Their Maximum Density

                 CAIR        FCM Letter Trays and Flat Tubs not
                                                                                     2,771,007
                             Filled to Their Maximum Density
                        Total                                                        $27,304,758


                 Air                Funds Put to Better Use19
                Carrier                Impact Category                                Amount

                 FedEx         FCM Letter Trays and Flat Tubs not                   $206,032,540
                               Filled to Their Maximum Density

                  UPS          FCM Letter Trays and Flat Tubs not                        9,523,671
                               Filled to Their Maximum Density

                 CAIR       FCM Letter Trays and Flat Tubs not                         24,346,368
                            Filled to Their Maximum Density
                       Total                                                        $239,902,579




18
   Questioned Costs: unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract,
etc. These costs may be recoverable or unrecoverable and are usually a result of historical events.
19
   Funds that could be used more efficiently by implementing recommended actions.


                                                         11
Density of First-Class Mail                                                   NL-AR-12-003
 on Air Transportation




                              Questioned Costs Applicable to FedEx

   Savings Applicable to FCM Letter Trays and Flat Tubs not Filled to Their Maximum
        Density, Transported on FedEx – April 1, 2010, through March 31, 2011

  FedEx Questioned Costs by             Cubic Feet that Could
      Schedule Period                    Have Been Avoided               Amount
          April 2010                                                  $2,214,395.64
          May 2010                                                     1,969,540.63
          June 2010                                                    1,511,575.04
          July 2010                                                    2,234,286.22
         August 2010                                                   2,257,850.58
       September 2010                                                  2,357,335.98
        October 2010                                                   2,311,211.98
       November 2010                                                   1,748,296.96
       December 2010                                                   1,471,195.12
        January 2011                                                   1,953,378.24
        February 2011                                                  1,725,529.57
         March 2011                                                    1,695,208.72
                  Total                                              $23,449,804.68




                                               12
Density of First-Class Mail                                                              NL-AR-12-003
 on Air Transportation




                   Questioned Costs Applicable to United Parcel Service

   Savings Applicable to FCM Letter Trays and Flat Tubs not Filled to Their Maximum
         Density, Transported on UPS – April 1, 2010, through March 31, 2011

                                                  UPS
           Assigned Origin Number of Units that Could Total Pounds that Could
              Air-Stops       Have Been Avoided         Have Been Avoided        Savings
          ATL                                  24,673                         $    24,968.60
          BDL                                  28,890                              28,530.10
          BIL                                   8,521                               8,175.70
          BOS                                  47,226                              46,797.90
          BWI                                  53,782                              51,310.20
          CLE                                  11,543                              11,298.35
          CLT                                   7,328                               7,061.40
          CMH                                   8,913                               8,701.40
          CVG                                  15,719                              16,129.15
          DEN                                   1,220                               1,190.75
          DFW                                  48,314                              46,150.65
          DSM                                   6,116                               6,077.70
          DTW                                  27,340                              26,917.40
          EWR                                  74,099                              75,713.15
          GRR                                  16,648                              17,153.90
          GSO                                   3,056                               2,916.30
          IAD                                   2,575                               2,593.65
          IND                                  29,411                              30,223.65
          JAX                                  16,545                              16,679.70
          JFK                                  81,036                              86,215.95
          LAS                                   1,805                               1,768.35
          LAX                                  74,163                              75,137.25
          MCI                                  19,382                              19,943.85
          MCO                                  10,197                               9,206.35
          MIA                                   2,624                               2,857.90
          MKE                                  27,663                              27,738.00
          MSP                                  34,782                              35,321.80
          OAK                                  98,988                              99,730.95
          ONT                                  21,166                              20,735.35
          ORD                                  34,639                              35,211.30
          PDX                                  51,127                              50,383.35
          PHL                                  89,694                              85,609.55
          PHX                                   5,697                               5,322.95
          PIT                                   3,730                               3,726.60
          RDU                                   7,101                               6,404.20
          RNO                                   1,028                                 952.15
          ROC                                  25,947                              25,778.85
          SDF                                  19,943                              18,919.95
          SEA                                   1,477                               1,477.00
          SLC                                  19,746                              19,368.10
          SMF                                  19,497                              19,488.75
          STL                                   3,477                               3,519.20
          TPA                                     553                                 539.00
          TOTAL                             1,087,381                         $ 1,083,946.35




                                                  13
Density of First-Class Mail                                                                  NL-AR-12-003
 on Air Transportation


            Questioned Costs Applicable to Commercial Passenger Airlines

   Savings Applicable to FCM Letter Trays and Flat Tubs not Filled to Their Maximum
        Density, Transported on CAIR – April 1, 2010, through March 31, 2011

                                                  CAIR
            Assigned Origin Number of Units that Could Total Pounds that Could
               Air-Stops       Have Been Avoided         Have Been Avoided          Savings
           ABQ                                     300                           $       228.46
           ANC                                   1,759                                 1,651.25
           ATL                                  60,445                                43,989.37
           AUS                                  56,777                                55,415.51
           BDL                                  75,328                                67,597.55
           BOS                                 240,614                               203,920.81
           BWI                                  74,664                                58,288.76
           CLE                                  21,057                                19,631.21
           CLT                                  41,518                                29,149.61
           CMH                                  10,725                                 8,814.99
           CVG                                   3,000                                 2,134.54
           DEN                                 146,028                               109,084.36
           DFW                                 206,260                               172,443.35
           DSM                                   2,488                                 1,940.40
           DTW                                  59,979                                47,482.60
           EWR                                 129,485                               120,713.16
           GSO                                  23,482                                15,842.38
           GUM                                   5,169                                 4,660.39
           HNL                                  90,720                                73,265.11
           IAD                                  57,009                                46,572.40
           IAH                                 162,400                               160,535.97
           IND                                   3,838                                 2,959.26
           JFK                                 101,302                                86,500.71
           LAS                                  36,480                                28,398.04
           LAX                                 240,420                               193,830.92
           LGB                                       6                                     5.28
           MCI                                  41,303                                32,252.24
           MCO                                  19,494                                13,695.16
           MIA                                  32,538                                31,776.07
           MKE                                 102,738                                79,124.56
           MSP                                  97,987                                73,174.49
           MSY                                  21,751                                22,557.21
           OAK                                  40,457                                32,368.14
           OMA                                  25,393                                18,679.06
           ONT                                  22,869                                17,288.82
           ORD                                 258,340                               204,441.91
           PDX                                  83,515                                65,327.40
           PHL                                  97,603                                68,029.76
           PHX                                  94,407                                66,143.20
           PIT                                  22,465                                17,137.68
           RDU                                  20,368                                15,671.33
           SAN                                  50,602                                41,618.30
           SAT                                   7,923                                 7,172.03
           SDF                                     141                                    89.58
           SEA                                  97,005                                77,297.01
           SFO                                 124,565                                97,470.64
           SJU                                  15,918                                12,031.31
           SLC                                  48,778                                35,770.51
           SMF                                  30,013                                23,442.36
           SNA                                  90,168                                70,162.01
           STL                                  40,216                                33,374.77
           TPA                                  60,791                                50,610.17
           TUS                                  11,965                                 9,244.76
           TOTAL                             3,410,566                           $ 2,771,006.87




                                                  14
Density of First-Class Mail                                       NL-AR-12-003
 on Air Transportation



                              Appendix C: Management’s Comments




                                             15
Density of First-Class Mail        NL-AR-12-003
 on Air Transportation




                              16
Density of First-Class Mail        NL-AR-12-003
 on Air Transportation




                              17
